HHS/OIG, Audit - "Review of Medicare Part A Pension Costs Claimed for
Medicare Reimbursement by Blue Cross Blue Shield of Oregon for Fiscal Year
1996," (A-07-06-00214)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Part A
Pension Costs Claimed for Medicare Reimbursement by Blue Cross Blue Shield of
Oregon for Fiscal Year 1996," (A-07-06-00214)
October 19, 2006
Complete Text of Report is available in PDF format (390 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine the allowability of Medicare Part A pension costs claimed by Oregon for Medicare reimbursement for fiscal year (FY) 1996. We found that Oregon failed to claim $136,186 of allowable Medicare Part A pension costs due to an adjustment made to pension costs from an administrative cost audit. Oregon claimed $25,552 of pension costs for Medicare reimbursement; however, we calculated the allowable Medicare pension costs during this period to be $161,738. We recommended that Oregon revise its Final Administrative Cost Proposal to claim the allowable Medicare Part A CAS pension costs of $136,186 for FY 1996. Oregon agreed with our recommendation.